                                                                   lnit j ~ laL D parlm nt o[ tale
                                                                  ano the Br ad('asLing Board of GOY mol's

                                                                  OJfi('e of J1/   PP.l'tO,.   Gelleral


                                                                         SEP 19 2012

MEMORANDUM

TO:              M - Mr. Patrick Kennedy

FROM:            OlG-Harold      w. Geisel     ~fJt 

SUBJECT:         Memorandum Report, Improving Leadership at Posts and Bureaus (ISP-I-12-48)


       On June 29, 2010, the Office ofInspector General (OIG) forwarded the attached
memorandum report' to Executive Secretary Stephen Mull with a recommendation that the
Department of State (Department) devise and implement a feedback system to regularly assess
post and bureau managers and take appropriate measures to address and correct post and bureau
leadership and management deficiencies .

        The memorandum noted that OIG inspections had shown that " while a majority of posts
and bureaus are well run, leadership in a small but significant minority needs to be strengthened"
and that such leadership deficiencies resulted in reduced productivity, low morale, and stress­
related curtai lments.

        The situation described in that memorandum persists. OIG's FY 2012 inspections found
that while 75 percent of ambassadors, deputy chiefs of mission, and principal officers are doing a
good to excellent job, 25 percent have weaknesses that, in most cases, have a significant impact
on the effectiveness and morale of their posts and certainly warrant intervention by the
Department.

        One reason for a high percentage of posts requiring leadership attention in the past year is
that a number of posts were selected for inspection because OIG received specific indications of
weak leadership. The 75 percentl25 percent figures apply to the posts OIG inspected and not
necessarily to the Department as a whole.

       Even leaders judged by OIG inspectors to be good to excellent could benefit from an
assessment or feedback mechanism.

        OIG therefore reiterates the importance it places on adopting an effective assessment and
performance improvement system for ambassadors, deputy chiefs of mission, and principal
officers. OIG continues to believe that a confidential survey of personnel at post is an.essential
element of such a system. While such a survey cannot yield precise rankings, our experience has


I Implementation of a Process to Access and Improve Leadership and Manageme nt of Department of State Posts and

Bureaus, Report Number ISP-I-IO-68.
                                                      1
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


shown that it is an excellent diagnostic tool that can reveal serious problems as well as identify
strong performances. Equally important is the followup conducted by the home bureau to
provide training, coaching, and performance improvement plans, or in extreme cases,
reassignment. By implementing such a system, the Department can intervene early to help
leaders improve their performance while minimizing the damage to posts and sparing individuals
and the Department possible embarrassment.

      The Quadrennial Diplomacy and Development Review provides an opportunity for the
Department to develop such a system. OIG stands ready to assist in this effort.

Recommendation 1: The Bureau of Human Resources, in coordination with the Office of the
Under Secretary for Political Affairs, should institute a system to assess the performance of
leadership of posts that includes a confidential survey of staff focused on key elements of
effective leadership and provision for the appropriate Assistant Secretary to follow up with
corrective action where necessary. (Action: DGHR, in coordination with P)

Identifying Leadership Principles

         Many OIG recommendations relate to basic leadership or management principles and the
failure to observe basic principles that apply to organizations of every kind—government,
business, or nonprofit. OIG has drafted a series of short papers outlining such principles, with
statements by leading authorities on management, for inspectors to use in formulating
recommendations and providing counseling.

        The Foreign Affairs Manual (FAM) and Foreign Affairs Handbook do not provide a
comprehensive set of leadership and management principles to guide Department employees,
particularly those in managerial positions. They address a few of these principles but not
comprehensively. For example, 3 FAM 1214 provides:
       Supervisors and program managers at all levels are expected to provide leadership by
       example and to acquire and practice those supervisory and managerial skills which are
       designed to foster the highest attainable degree of employee morale and productivity.
Except for a handbook for supervisors of Foreign Service nationals, neither the Foreign Affairs
Manual nor Foreign Affairs Handbook state what those “supervisory and managerial skills” are.

        A new Foreign Affairs Handbook on leadership and management principles could serve
as a reference for managers at all levels and supplement the training from the Foreign Service
Institute. The handbook would provide criteria and a basis for senior Department leadership to
monitor and evaluate the effectiveness of leadership and management in posts and bureaus and to
address shortcomings. The Quadrennial Diplomacy and Development Review working group on
evaluating leadership would be a good organization to guide efforts to revise the Foreign Affairs
Handbook.

Recommendation 2: The Office of the Under Secretary for Management should develop a
Foreign Affairs Handbook on leadership and management principles. (Action: M/PRI)




                                                2
                          SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




Attachment:
       OIG Memorandum to S/ES



cc :   DGHR - Linda Thomas-Greenfield
       S/ES - Stephen Mull




                                        3
                       SENSITIVE BUT UNCLASSIFIED
                                                                                          Attachment 

                                                            United States Department of Statf~
                                                            and the Broadcasting Hoard of Gove /'1lo!'s

                                                            Ojfice of 1llspl'ctor   (;e1//Jr(l·l


                                                              JUN 29 2010

MEMORANDUM

TO:            S/ES - Mr. Stephen D. Mull                                      ().

FROM:          OIG - Harold W. Geisel, Deputy Inspector General     /f~Y;1'
SUBJECT:       Implementation of a Process to Assess and Improve Leadership and Management
               of Department of State Posts and Bureaus, ISP- 1-10-68


        Office of Tnspector General (OIG) inspections over the past 4 years have shown that
while a majority of posts and bureaus are well run, leadership in a small but significant minority
needs to be improved. In a recent OIG survey of employees who are serving or have served in
high stress/high threat posts, 45 percent of the respondents cited post leadership as a cause of
stress for them or their colleagues. An inspection of the Bureau of African Affairs identified
leadership as a problem in certain posts overseas as well as in the bureau itselfunder its previous
management. OTG has found problems in posts in every region, under both career and political
ambassadors. The results of poor leadership include reduced productivity and effectiveness, low
morale, stress, and curtailments.

        OIG assesses post and bureau performance including leadership approximately every five
to eight years. That interval is far too long to ensure that posts and bureaus are consistently
managed effectively. OIG believes that it is the responsibility of the Department to conduct its
own assessments, based in part on input from staff and to do so every year, especially at one­
year-tour posts. Tn many cases, the knowledge that the leaders would be assessed arumally would
cause them to be more sensitive to how they lead staff. The arumal assessment would allow for
the early identification of problems and for remedial action in time to have an effect on the
management and operations of a post or bureau under each leadership team. In some cases,
leaders and mid-level managers will be unable or unwilling to change. In more cases, OrG
believes that leaders would be receptive to counseling and training to help them become more
effective. These assessments would also provide better support for arumal evaluations and help
the chief of mission and deputy chief of mission selection committees make better informed
recommendations and decisions.

        OIG offers the following suggestions for ways to identify post and bureau leadership and
management issues. The first stage of these assessments can be conducted through onl ine
surveys of employees to identify which posts have problems. The credibility and effectiveness of
these surveys will depend on the Department 's ability to guarantee confidentiality, to take
remedial action, and to protect against retaliation. Based on the surveys, a small team comprised,
for example, of representatives of the Bureau of Human Resources and the regional bureau, with
possible participation of the Foreign Service Tnstitute or the Office of Medical Services, could
                                               -2­


visit a problem post to conduct interviews and provide counseling and training where
appropriate. (The Foreign Service Institute has leadership coaches who can be used for this
purpose.) Ideally, the regional Assistant Secretary would take a strong role in this process,
ensuring that ambassadors, deputy chiefs of mission, and principal officers place a high priority
on leadership and management, that their employee evaluation reports reflect their performance
in these areas and that counseling occurs whether in person or through letters. The approach of
the current Assistant Secretary for the Bureau of African Affairs can serve as a good example;
however, a consistent Department-wide approach would require that the Bureau of Human
Resources be heavily involved, including coordinating or leading this process.

Recommendation 1: The Department of State should devise and implement a feedback system
to regularly assess post and bureau managers and take appropriate measures to address and
correct post and bureau leadership and management deficiencies. (Action: SIES)

       OIG would be happy to provide advice and suggestions based on our experience in
conducting such assessments, and I would be pleased to discuss this issue further with you or
whomever you wish to designate.


Enclosures:
       Compliance Sheet
       OIG Resolution Procedures




cc: 	   P     - Mr. Bums
        HR    - Ms. Powell
        MED    - Mr. Yun
        OS     - Mr. Boswell
        FSI   - Ms. Whiteside
